                                                      National Railroad Passenger Corporation
                                                      Office of Inspector General
                                                      10 G Street NE, 3W-300
                                                      Washington, DC 20002




                         AMTRAK EMPLOYEE GUILTY OF THEFT
                                 DECEMBER 18, 2012
                                  CASE # DC-12-0284


OIG investigation of an employee for embezzling funds by falsifying travel vouchers and
manipulating Amtrak travel card purchases resulted in an arrest warrant and a criminal Felony
Fraud charge in Superior Court of the District of Columbia. The employee pled guilty and was
sentenced to five years supervised probation, 50 hours of community service, and was ordered to
make restitution to Amtrak in the amount of $9,862. The employee was terminated.
